No.

IN THE SUPREME COURT OF THE UNITED STATES
MARIO ALLAN MONTANO, Petitioner,
v.
STATE OF MICHIGAN,
OAKLAND COUNTY CIRCUIT COURT JUDGE, Respondent.

APPENDIX

Appendix A

Court of Appeals, State of Michigan
ORDER

In re Montano
Docket No.

353S02

LCNo.

2017-854298-PP

Elizabeth L. Gleicher, Judge, acting under MCR 7.211 (E)(2), orders:
The motion to waive fees is DENIED because a review of the plaintifPs affidavit of
indigency shows the ability to pay.
Within 21 days of the Clerk’s certification of this order, plaintiff shall pay to the Clerk of
the Court the entry fee of $375 and the $25 e-filing system fee, for a total of $400. Failure to comply with
this order will result in the dismissal of the complaint for superintending control.

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

JUN I 6 202#
Date

Appendix B

Court of Appeals, State of Michigan
ORDER

In re Montano
Docket No.

353802

LC No.

2017-854298-PP

Elizabeth L. Gleicher, Judge, acting tinder MCR 7.211 (E)(2), orders:
The motion for reconsideration ofthis Court’s order denying the waiver of fees is DENIED.
Plaintiff must pay the full amount owed to the Clerk of the Court on or before July 7, 2020. Failure to
comply with this order will result in the dismissal of the complaint for superintending control.

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

JUN 2 3 2820
Date

Appendix C
/

Court of Appeals, State of Michigan
ORDER

In re Montano
Docket No.

353802

LC No.

2017-854298-PP

Christopher M. Murray, Chief Judge, acting under MCR 7.201(B)(3), orders:
The complaint for superintending control is DISMISSED for failure to pursue the case in
conformity with the rules. MCR 7.201(B)(3) and 7.216(A)(10). Plaintiff has failed to correct the defect
in this filing by paying to the Clerk of the Court the $375 entry fee and the $25 e-filing system fee.
Dismissal is without prejudice to whatever other relief may be available consistent with the Court Rules.
On its own motion pursuant to MCR 7.216(C)(1), the Court ASSESSES SANCTIONS on
the basis that plaintiffs complaint is frivolous and vexatious. Plaintiff Mario Allan Montano is ordered
to pay sanctions in the amount of $750.00 to the Clerk of this Court within 28 days of the Clerk's
certification ot this order. The Clerk of the Court is ordered to return without accepting any further filings
by, or on behalf of, Mario Allan Montano in any non-criminal matter until he has made the payment
required by this order. MCR 7.216(A)(7).

i

1

n.

4W

'L

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

JUL 1 4 2020
Date

Appendix D

Court of Appeals, State of Michigan
ORDER

In re Montano
Docket No.

353957

LCNo.

2012-802216-DO

Elizabeth L. Gleicher, Judge, acting under MCR 7.211(E)(2), orders:
The motion to waive fees is DENIED because a review of the plaintiff’s affidavit of
indigency shows the ability to pay.
Within 21 days of the Clerk’s certification of this order, defendant shall pay to the Clerk
of the Court the entry fee of $375 and the $25 e-filing system fee, for a total of $400. Failure to comply
with this order will result in the dismissal of the complaint for superintending control.

r

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

JUL 1 4 2020
Date

Appendix E

Court of Appeals, State of Michigan
ORDER

In re Montano
Docket No.

353957

LCNo.

2012-802216-DO

Elizabeth L. Gleicher, Judge, acting under MCR 7.211(E)(2), orders:
The motion for reconsideration ofthis Court’s order denying the waiver offees is DENIED.
Plaintiff must pay the full amount owed to the Clerk of the Court on or before August 4,2020. Failure to
comply with this order will result in the dismissal of the complaint for superintending control.

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

JUL 2 8 202B
Date

Appendix F

Court of Appeals, State of Michigan
ORDER

In re Montano
Docket No.

353957

LC No.

2012-802216-DO

Christopher M. Murray, Chief Judge, acting under MCR 7.201(B)(3), orders:
The complaint for superintending control is DISMISSED for failure to pursue the case in
conformity with the rules. MCR 7.201(B)(3) and 7.216(A)(10). Plaintiff has failed to correct the defect
in this filing by paying to the Clerk of the Court the $375 entry fee and the $25 e-filing system fee.
Dismissal is without prejudice to whatever other relief may be available consistent with the Court Rules.
On its own motion pursuant to MCR 7.216(C)(1), the Court ASSESSES SANCTIONS on
the basis that plaintiffs complaint is frivolous and vexatious. Plaintiff Mario Allan Montano is ordered
to pay sanctions in the amount of $750.00 to the Clerk of this Court within 28 days of the Clerk's
certification of this order. The Clerk of the Court is ordered to return without accepting any further filings
by, or on behalf of, Mario Allan Montano in any non-criminal matter until he has made the payment
required by this order. MCR 7.216(A)(7).
)

i

/

.

■'Hi

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

AUG 1 1 2020
9

Date

Appendix G

Order

Michigan Supreme Court
Lansing, Michigan

October 5, 2020

Bridget M. McCormack,
Chief Justice

David F. Viviano,
ChiefJustice Pro Tern

161475
161670

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,
Justices

In re MONTANO.

MARIO ALLAN MONTANO,
Plaintiff-Appellant,
SC: 161475, 161670
COA: 353802
OAKLAND COUNTY CIRCUIT COURT
JUDGE,
Defendant-Appellee.

On order of the Chief Justice, the interlocutory application and the application for
leave to appeal are administratively dismissed for the failure of plaintiff-appellant to pay
the outstanding fees. The clerk of the Court shall not to accept further filings from the
plaintiff-appellant in any civil matter until the sanctions ordered by this Court in No.
161152, IW v MM ($500.00) and No. 161299, Montano v Court of Appeals ($1,000.00)
are paid in full.

A

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
October 5, 2020
Clerk

Appendix H

Order

Michigan Supreme Court
Lansing, Michigan

October 5, 2020

Bridget M. McCormack,
Chief Justice

David F. Viviano,
Chief Justice Pro Tern

161662
161848

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,
Justices

IVY ALICE WIMMER,
Plaintiff-Appellee,

SC: 161466, 161645
COA: 353685
Oakland CC: 2012-802216-DO
MARIO ALLAN MONTANO,
Defendant-Appellant.
On order of the Chief Justice, the interlocutory application and the application for
leave to appeal are administratively dismissed for the failure of defendant-appellant to
pay the outstanding fees. The clerk of the Court shall not to accept further filings from
the defendant-appellant in any civil matter until the sanctions ordered by this Court in
No. 161152, IW v MM ($500.00) and No. 161299, Montano v Court of Appeals
($1,000.00) are paid in full.

imm
%

$

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
October 5, 2020
Clerk

